<html>
<title> - THE AMERICAN BATTLE MONUMENTS COMMISSION AND THE WORLD WAR II MEMORIAL</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 THE AMERICAN BATTLE MONUMENTS COMMISSION AND THE WORLD WAR II MEMORIAL

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 6, 2000

                               __________

                           Serial No. 106-214

                               __________

       Printed for the use of the Committee on Government Reform



  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                              -----------

                   U.S. GOVERNMENT PRINTING OFFICE
71-730                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                           Jason Chung, Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 6, 2000.....................................     1
Statement of:
    Clark, David L., Director, Audit Oversight and Liaison, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office; and Dennis Cullinan, director, 
      legislative services, Veterans of Foreign Wars of the 
      United States..............................................    40
    Dole, Robert J., former U.S. Senator and National Chairman, 
      World War II Memorial Campaign.............................     9
    Herrling, Major General John P., USA (Ret), Secretary, 
      American Battle Monuments Commission.......................    14
Letters, statements, etc., submitted for the record by:
    Clark, David L., Director, Audit Oversight and Liaison, 
      Accounting and Information Management Division, U.S. 
      General Accounting Office, prepared statement of...........    43
    Cullinan, Dennis, director, legislative services, Veterans of 
      Foreign Wars of the United States, prepared statement of...    50
    Herrling, Major General John P., USA (Ret), Secretary, 
      American Battle Monuments Commission, prepared statement of    20
    Holmes Norton, Hon. Eleanor, a Delegate in Congress from 
      Washington, DC, prepared statement of......................     5
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     8
    Smith, Frederick W., co-chairman, National World War II 
      Memorial Campaign, prepared statement of...................    16

 
 THE AMERICAN BATTLE MONUMENTS COMMISSION AND THE WORLD WAR II MEMORIAL

                              ----------                              


                         TUESDAY, JUNE 6, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Mica, Terry, Biggert, and 
Norton.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Jason M. Chung, clerk; Jon 
Bouker and David Rapallo, minority counsels; and Earley Green, 
minority assistant clerk.
    Mr. Shays. Good morning. I would like to call this hearing 
to order.
    As the beneficiaries of past sacrifices, our duty as 
citizens is to remember, to mark for future generations, the 
milestones of our national honor.
    Fifty-six years ago today, Operation Overlord's D-Day, 
135,000 Allied troops began the historic amphibious invasion 
that would end the war in Europe. Today, in New Orleans, the 
National D-Day Museum opens to commemorate the courage and 
sacrifices of the 71,000 Americans who entered France that day. 
Let us pause to remember them.
    An important milestone has yet to be marked. No memorial 
stands to the 16 million Americans who served in World War II, 
the men and women who defined their generation with quiet 
heroism and redefined our still-young Nation as a global power.
    The Federal agency charged by Congress with the day-to-day 
duties of remembrance, the American Battle Monuments Commission 
[ABMC], has since 1993 moved the World War II Memorial from 
concept to construction. Today, we will hear how the Commission 
plans to complete this ambitious, noble enterprise. We will 
also discuss how the ABMC is performing its mission to preserve 
and maintain the hallowed ground around the world where U.S. 
servicemen and women rest.
    We are privileged to be joined this morning by former 
Senator Robert Dole, who serves as the National chairman of the 
World War II Memorial Campaign. A living testimonial to the 
fortitude and the self-effacing sense of duty that won the war, 
he and the American Battle Monuments Commission leadership have 
worked to overcome the financial, artistic and political 
challenges inherent to so ambitious an undertaking. Through 
their efforts, the World War II Memorial will take its place 
among the great monuments to freedom on the Mall.
    At this time, I would like to recognize Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. I am honored to be 
at this hearing today. I think there is nothing more important 
than remembering the past and what happened in World War II, so 
that we will not let something like that happen in the future.
    Two weeks ago, we passed a congressional resolution to put 
the ``memorial'' back in Memorial Day, and certainly the World 
War II veterans, so many of them who made the ultimate 
sacrifice; and I think for generations to come when people come 
to Washington and visit the various memorials, the things that 
they remember and think about. So our future generations need 
to have that opportunity, because we need to remember what has 
happened in the past.
    I welcome you all here today.
    Mr. Shays. Thank you very much.
    We also welcome a full member of the committee, 
Representative Norton from DC.
    Ms. Norton. Thank you, very much. I appreciate your 
courtesy and that of your ranking member, Rod Blagojevich, for 
responding to my request to sit in on this very important 
hearing. I am certainly grateful to my friend, Marcy Kaptur, 
for her 10-year fight to erect a memorial to the veterans of 
the Great War, which preserved democracy and freedom in our 
time.
    Former Senator Bob Dole has my great respect not only for 
his 36 years in the Congress, but also for the time and effort 
that he is devoting to achieving a memorial to veterans, like 
himself, who served their country in the Great War of 
Liberation of the 20th century.
    I appreciate the response of the National Capital Planning 
Commission to my plea and that of Senator Bob Kerrey and others 
in requiring that the original huge design for the memorial be 
reworked to a more appropriate size. Senator Kerrey and I also 
opposed the present Rainbow pool site, the last remaining 
visionary vista left in this small compact city. If this is the 
last opportunity to effect any change--and I would hope that it 
is not--then I would feel compelled to support the memorial, 
but only because of the eternal gratitude and enduring respect 
I have and I believe the entire world owes to the men and women 
who served in World War II.
    However, I feel compelled to briefly lay out for the record 
what many Americans, like myself, regard as a Mall that is and 
should always remain sacrosanct from intrusions of any kind.
    One does not have to be a historical preservationist or a 
conservationist or an environmentalist or a fourth-generation 
Washingtonian--and I am all of the above--to believe that the 
last remaining visionary space on the Mall should never be 
interrupted by the hand of man, however heroic and deserving 
the purpose. The space between the Lincoln Memorial and the 
Washington Monument has always been close to sacred in 
nationally symbolic terms. Equally sacred to me, a child of 
World War II, and for millions throughout the world, is the 
sacrifice that Brokaw's ``Greatest Generation'' made for the 
Nation and the world.
    This memorial continues to have major flaws of design and 
placement. I support the present memorial only if it is the 
best we can do. However, I sincerely believe that a truly great 
memorial could be achieved just as prominently elsewhere with 
the artistry and imagination the extraordinary World War II 
generation richly deserves.
    I recently suggested the idea of a Mall preservation plan, 
which has since been approved, as a no-build zone by the Joint 
Memorials Task Force. All agree that a World War II Memorial 
belongs somewhere on the Mall with an appropriate design and in 
the right place. As one who knows this city inside out, 
however, I caution that the placement at the Rainbow Pool site 
would create a virtual nightmare tourist scenario. The memorial 
would front one of the busy, congested streets that receives 
traffic from several arteries and is often strangled with cars, 
especially at rush hour. To reach the memorial, there would be 
no transportation, no parking, and no public transit access 
without defacing the Mall.
    The Nation's Capital is a planned city, but it was not 
meant to be finished. Washington was meant to develop, 
especially because, given its small and compact size, the city 
loses its beauty if it simply spreads to open spaces. A 
monument of the unique significance of the World War II 
Memorial should grace, not invade its space. To try to improve 
on the uniquely wondrous space between the Lincoln Memorial and 
the Washington Monument is like trying to add something to a 
Picasso or a Michelangelo.
    I think of L'Enfant's celebrated plan creating our Capital 
in much the way I view the Constitution. Both the L'Enfant plan 
and the U.S. Constitution were created by men who, like the men 
and women of World War II, are in a class by themselves. I have 
learned to respect the Constitution by studying it as a 
constitutional scholar and lawyer. I have learned to respect 
the L'Enfant plan by living with it as a child and as a 
Congresswoman.
    We are not smarter than Madison, and we are not more 
brilliant than L'Enfant. We are not nearly as brave, wise, and 
deserving as the World War II veterans. We fall short of the 
``greatest generation'' of the 20th century if this space and 
this design is the best this generation can do.
    I urge still more work, much deeper thought, and an effort 
fueled by the unparalleled magnificence of the achievement of 
the World War II veterans.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you. Congressman Mica, do you have any 
statement?
    Mr. Mica. I don't have a formal statement. I will submit 
something for the record.
    I just want to commend you, Mr. Chairman, for holding this 
hearing on such a historic day on a topic that certainly needs 
the attention of this subcommittee and the Congress, and that 
is to commemorate the action of so many brave Americans, 
including my dad, who didn't die in battle but passed away as a 
result of his service to our country.
    And I am also pleased to welcome Bob Dole, a great American 
patriot, whom I admire, and I look forward to his statement and 
also to the testimony that we will have here today; and 
hopefully it will result in us accomplishing the goal that we 
all want to set forward and complete, and that is a memorial 
fitting to those who served this country in their great effort.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T1730.001

[GRAPHIC] [TIFF OMITTED] T1730.002

    Mr. Shays. I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T1730.003
    
    Mr. Shays. I ask further unanimous consent that all 
witnesses be permitted to include their written statements in 
the record; and without objection, so ordered.
    Our first panel the Honorable Robert J. Dole, chairman, 
World War II Memorial Campaign. I could call you Senator, but 
you told me the title you like the best is veteran.
    And Major General John P. Herrling, U.S.A. retired, 
Secretary, American Battle Monuments Commission, accompanied by 
Kenneth Pond, executive director from the Commission, as well 
as Jim Aylward, executive director, World War II Memorial 
Campaign.
    As is our custom, we swear in all of our witnesses, and I 
would ask all that I called to stand and be sworn in.
    [Witnesses sworn.]
    Mr. Shays. I note for the record that all of our witnesses 
and the accompanying witnesses have been sworn. Thank you.
    Senator Dole, you have the floor. It is wonderful to have 
you here.

 STATEMENT OF ROBERT J. DOLE, FORMER U.S. SENATOR AND NATIONAL 
            CHAIRMAN, WORLD WAR II MEMORIAL CAMPAIGN

    Mr. Dole. Mr. Chairman, thank you very much; and I thank 
all of my former colleagues who are here this morning. Judy 
wasn't here when I was here, but thank you for being here.
    As Eleanor recalled, when I was here the last time was on 
prostate cancer. This is much more pleasant.
    This is an effort that we have been making for several 
years. And as has been pointed out, it was initiated by Marcy 
Kaptur, and it shows the power of a visit from a constituent, 
Roger Durbin, who said, why don't we have a World War II 
Memorial in Washington, DC? And she looked around and others 
looked around, and we couldn't find one. So she introduced 
legislation to authorize a World War II Memorial, and that was 
sort of the start of the entire progress, and here we are 13 
years later just about ready to say the money is in the bank or 
the money is pledged. And so it is a pleasure for me to be here 
to talk about the construction.
    Major General John Herrling, Secretary of the American 
Battle Monuments Commission, will address the overall mission 
of ABMC and talk about these wonderfully kept cemeteries around 
the world. I know that you have all visited some of the 
American cemeteries, and they are a sight to behold for their 
beauty, and they are obviously well kept.
    My co-chairman, Fred Smith, the CEO of Fed Ex, is unable to 
be here, but I understand that his statement will be 
summarized; and I request that it be inserted in the record in 
full. Fred Smith has a great record in Vietnam; and I remember 
going to ask him if he would help me, and I said that I need 
some help in corporate America. And without hesitation, he 
said, if you want me to do it, I will do it, because I think he 
had three uncles and other relatives in World War II; and he 
has been very, very helpful.
    We have had literally dozens and maybe hundreds of 
corporations and foundations and veterans groups and everybody 
you can think of help us. I was in Michigan yesterday with the 
Governor of the State. Governor Engler gave me a check for 
$653,000, a dollar for each person from Michigan who served in 
World War II, one of them, of course, former President Ford.
    We just left a ceremony on the Mall, and I know Eleanor 
said that there is some disagreement on the site. I didn't pick 
the site; I wasn't on the selection committee. I have just been 
doing the fundraising, and we were given a check this morning 
for $14.5 million from Wal-Mart. Each one of their 3,000 stores 
participated over a 6-month period; and when I went to bed last 
night it was $14 million. When I woke up this morning, it was 
$14.5 million. Had I overslept, we might have had enough to 
finish the memorial.
    It was a wonderful contribution, and Tom Coughlin and 
others at Wal-Mart certainly deserve our thanks. Over 1,900 
World War II veterans still work for Wal-Mart, and they were 
able to put the squeeze on the customers when they came in, and 
they did a great job.
    I accepted this challenge in March 1997 and someone said--
as a matter of fact, I think it was Senator Bob Kerrey who 
said, ``Why are you running around with a tin cup? Why don't 
you come to Congress and we will appropriate the money?''
    Well, our view was that we ought to raise it in the private 
sector, and we ought to leave the money up here for veterans' 
needs. Present-day veterans who need help, and $100 million can 
help a lot of veterans.
    Why would I agree to take on this responsibility? I think I 
said on that morning, those of us who served during World War 
II, we didn't hear the call of history, we heard only the 
voices of friends, voices that sometimes could end in a moment 
in a place far, far from home, whether Europe, the Pacific or 
wherever you might be. I can hear them. I was in the 10th 
Mountain Division, and I never quite understand how I got in 
the 10th Mountain Division because I came from the plains of 
Kansas, but in those days if you were warm and walking you were 
a good prospect for second lieutenant, and I became a second 
lieutenant.
    But I remember hearing some of the voices, and we had some 
of the great skiers of America at that time in the 10th 
Mountain Division; and when the war ended, these young men 
fanned out across the country and kind of organized the 
American ski industry and sort of made it take off. Many of 
them were wounded or killed in Italy. So I could hear them as 
if it were yesterday. I can hear the voices. And I think it is 
almost frozen in time, because 56 years ago was D-Day, of 
course, and we think of some of the days that we shared and 
some of the experiences that we shared.
    But I have thought more about it, and I thought about it in 
this sense: We spend 55 years, 56 years; in another 55 years, 
there will be no one left who heard those voices, nobody came 
and talked about it. And we build this memorial to bear them 
witness and remind future generations that preserving freedom 
and liberty sometimes calls for great sacrifice.
    We throw the word ``hero'' around pretty easy in America, 
``this person is a hero'' and ``that person is a hero.'' I 
think there is a distinction between heroes and celebrities. I 
think some of the great sports stars are great, but they are 
not heroes in my view; they are celebrities, and they deserve a 
lot of praise and whatever.
    But the heroes, as people on this committee know, are young 
men and women, or men and women of any age, who risked their 
lives--maybe in the District of Columbia, maybe in Kansas, 
maybe in uniform to save another life--and as a result of it, 
they may lose their life or spend their life with a lifetime of 
disability. And these are the heroes.
    And there were 400,000-some killed in World War II, there 
were over 6,000 killed 56 years ago in the beaches of Normandy, 
6,000 Americans in a 12-hour period on D-Day. World War II, of 
course, is really--this memorial is not just to those in 
uniform. We could not have prevailed in World War II had it not 
been for Rosie the Riveters and the people on the farms and the 
teachers and the preachers and the shopkeepers and those who 
provided the supplies and the equipment and machines and 
ammunition and all that we needed to be successful in the 
battlefield.
    I am not on the site committee, but I have thought a lot 
about it because I know good people can disagree. And I know 
this is sacred land between the Lincoln Memorial and the 
Washington Monument, but you know, there was no certainty that 
we were going to win World War II. And I remember, on D-Day, 
Eisenhower praying that he made the right decision to start the 
invasion on June 6, and then going off in his little tent and 
writing a four-sentence statement in longhand because he wasn't 
certain of victory, and this was to be handed to the press in 
case the landings failed.
    It went pretty much like this; I don't remember every word 
of it, but he said, ``Our mission has failed and I have 
withdrawn the troops. We acted upon the best advice available 
at the time from every source we had. The soldiers, the 
sailors, the airmen and the Marines, everyone involved that 
duty could call forth, if there is any responsibility for the 
failure, it is mine alone.''
    We talk a lot about leadership and different things. That 
says it all: ``if there is any responsibility for the failure, 
it is mine alone.'' And Eisenhower put that in his pocket and 
later threw it in the wastebasket, and somebody later retrieved 
it, and I now have a copy of it in my office which is one of my 
prouder possessions. But it demonstrates that had we not 
prevailed on D-Day 56 years ago, we could have lost the war. 
People don't think that would have happened, but it could have 
happened. Eisenhower wasn't certain, and he was the Supreme 
Commander, appointed by President Roosevelt.
    Had we failed, I am not certain who would be deciding what 
would be the Mall. It wouldn't be me or some site selection 
commission, it would be some foreign power telling us what we 
could do and when and how to do it.
    I can't think of any greater happening or event in the last 
100 years than the victory in World War II.
    We have become the greatest force in the world for peace 
because of World War II. We started integration in World War 
II, and all of the civil rights progress, in my view, is a 
direct result of what happened in World War II when they 
started integrating the troops as they should have a long time 
before. And you can look at the GI Bill of Rights, the 2 
million or more veterans, men and women who would not have been 
able to go to college, were able to afford to because of the GI 
Bill of Rights. This one law changed America for the better. 
Young men and women who couldn't go to college had this 
opportunity, and I was one of those. And because I had a 
disability, I had a recording machine to take to school, I had 
a left-handed typewriter, I had all of these advantages, I also 
had the best notes in class because I recorded, and I was very 
popular around final time. It changed America and I think it 
changed the world.
    So I am not going to argue about the site, if there are 
things that should be changed; and Eleanor and Bob Kerrey and 
others did make significant recommendations, and they were 
accepted, and I think it is a much better memorial now. We 
appreciate that.
    I went down to the site this morning and we collected this 
large check. We now have about $92 million, and we need a net 
of about $98.2 million. President Clinton has agreed to host a 
breakfast on June 29th for people from Hollywood and the TV 
industry, and they have not been particularly noteworthy to 
date. But hopefully on June 29th, they will be able to bring 
their checkbooks and that is one legitimate fundraiser we can 
have in the White House because this is for the World War II 
Memorial; and we will remind the movie industry that they have 
made millions and millions of dollars on World War II movies.
    I will just conclude by saying that we have raised--we got 
$5 million from the government for startup money. We will try 
to pay that back. We hope that the government might pay for the 
dedication and maybe the groundbreaking, but everything else--
the design, the construction, and maintenance, which is going 
to be millions of dollars in the future--we are going to raise; 
and we hope to pay back the government the $5 million that they 
initially gave us for startup money.
    In March 1997, the American Battle Monuments Commission was 
completing the initial startup of the campaign, developing a 
strategy and recruiting a projects staff; and prior to March 
1997, they received less than $350,000 from private donors.
    I said the best thing that has happened to us is that Fred 
Smith has agreed to help us and we brought Jim Aylward on board 
from New Jersey on board. We have a great staff working night 
and day to make this happen. I want to mention also, and I 
think I did mention, Roger Durbin, and one other group that is 
the veterans group. I hosted a luncheon in 1997, and it was the 
DAV, the VFW, the American Legion, AmVets, you name it, they 
were all there; and the American Legion agreed to raise $3 
million, the VFW, $7.5 million, and they will make $5 million. 
They are behind us 100 percent.
    It took awhile for people to become aware of this memorial. 
And then a fellow named Tom Hanks, who was Captain Miller in 
``Saving Private Ryan,'' Fred Smith and I had this big long 
list of things to tell him, and within 10 seconds he said, 
``I'm your man. What do you want me to do,'' has made a number 
of public service announcements for us and raised the 
recognition. We have also had a little help from Mr. Spielberg, 
and I think he will be willing to help us more.
    So the awareness is out there. We think that we are making 
progress, and we think that we will make more progress. We 
think that we will have support from the Hollywood and TV 
community later this month and early in July.
    I think others appearing this morning can give you the 
details, but it takes money to get there, and we think we will 
have raised about $144 million and the cost is going to be $100 
million; and those details are available obviously.
    I will just finally say this: Another thing this whole 
project has done is alerted school children. I was out in St. 
Hugh's School in Greenbelt, MD, 2 months ago, where the 
students of grades 1 through 6, I think it was, had raised 
$1,300. And it was a Saturday afternoon, much like a town 
meeting that you all go to; and their parents and grandparents, 
who were World War II veterans, and these young children 
understood what the World War II Memorial was all about.
    A couple of weeks ago, Marcy Kaptur accepted a memorial 
gift of $3,800 from students at Dakota Hills Middle School in 
Egan, MN. So we have dozens and dozens of schools all across 
America who participated.
    We have been asked to raise money from sources other than 
the Federal Government. We are extremely pleased with the 
results of our fundraising efforts to date. It has been a 
struggle at times, but we are in the home stretch and not any 
time too soon.
    Let me close with one note. There is some urgency about 
this. We are losing 1,000 World War II veterans a day. We have 
lost over 1 million since March 1997 and that is going to 
compound as they get into their late 1970's and 1980's. This is 
not being built for those of us who served, it is being built 
to remind future generations of the sacrifice, but we would 
like to have a few people there for the dedication. I know 
Strom is going to be there, he has already asked for tickets, 
but there may be others who want to be there and we hope to 
finish it by the year 2002.
    Time is running out 16 million, now fewer than 6 million. 
We believe that we are going to make it.
    I want to thank the committee. I think this is very 
important that you take a look at what we have done and what we 
intend to do and that Congress--because you know there have 
been a couple of efforts. They were going to build a Liberty 
Wall in France, took a lot of money from veterans and nothing 
ever happened, it went in their pocket or went somewhere else. 
I think to have the American Battle Monuments Commission in 
charge and have Congress with an oversight authority, the 
American people are going to know that every dollar that went 
into this memorial was properly spent and that you ended up 
with a wonderful project and a wonderful memorial that is going 
to be dignified and it is going to, I think, be a place that 
will please most everybody in America.
    Thank you very much. I ask that my entire statement be made 
a part of the record.
    Mr. Shays. Thank you for your testimony.
    You stood up to be sworn in as a World War II veteran, and 
I would like to know if there are any other World War II 
veterans in this room, and I would like them to stand up. Would 
they please stand up?
    Mr. Shays. Gentlemen, can you tell us your names?
    Mr. Muckler. My name is Bob Muckler. I live in Crossville, 
TN.
    Mr. Shays. Where did you serve, sir?
    Mr. Muckler. The U.S. Navy, Pacific.
    Mr. Shays. Thank you, sir.
    Mr. Hanson. Dan Hanson from Tennessee. I served in 
Greenland in the Air Force.
    Mr. Shays. Thank you very much.
    Mr. Choper. Herman Choper, Boynton Beach, FL; and I served 
in Iceland.
    Mr. Shays. So the Tennessee guys served in Iceland; and 
Senator Dole, you got to serve in the mountains. Go figure.
    Gentlemen, thank you very much.
    I would just like to ask one more question. Is there anyone 
here who lost a family member, a cousin, a dad, a granddad? Is 
there anyone here who lost a family member?
    Can you tell us who?
    Mr. Hanson. My older brother was with Patton, and he was 
killed.
    Mr. Shays. What was his name?
    Mr. Hanson. Arthur Hanson.
    Mr. Dole. Can I mention one thing, Mr. Chairman? I had a 
man who was in his 50's come up to me yesterday in Michigan and 
say, ``You didn't mention orphans.'' You talk about widows, but 
his father went off to Europe and never came back and he was 1 
or 2 years old at the time. I said, ``You make a good point.''
    You think of all of these young men going over there 
single. Some left families behind, and certainly Congress over 
the years made certain that we provided for the widows and 
orphans. I omitted that from my remarks and so I think they are 
young men, fairly young men and women out there today whose 
fathers left and never came back. They are in their 50's now.
    Mr. Shays. I was at an event a few years ago with Candice 
Marino, and I was talking about the men and women who never 
came back and their families, and he told me that he lost his 
brother, and I had never known that. I marveled that I had 
never known than, and then he said his wife lost her brother, 
and there is just a whole group of Americans who lost their 
loved ones during this horrific war. You put the ball in play 
and we are going to invite Kenneth Pond and Jim Aylward as you 
give your testimony.
    Senator Dole, what have you done with that $14.5 million 
check?
    Mr. Dole. They gave me a great big one. It won't fit in my 
wallet.
    Mr. Shays. That is great news. Thank you very much.
    General Herrling. Thank you, Mr. Chairman. With your 
permission, Frederick W. Smith would like his statement put in 
the record.
    Mr. Shays. It will be part of the record.

    STATEMENT OF MAJOR GENERAL JOHN P. HERRLING, USA (RET), 
        SECRETARY, AMERICAN BATTLE MONUMENTS COMMISSION

    General Herrling. I will read Frederick W. Smith's short 
statement:

    Mr. Chairman and distinguished members of the subcommittee, 
I regret I am unable to appear before you with Senator Dole and 
General Herrling. However, I appreciate the opportunity to 
present comments on my experience as the Co-chairman of the 
National World War II Memorial Campaign.
    I have many friends and relatives who were involved in 
World War II. When Senator Dole asked me to take part in this 
campaign, all I could think of was my Uncle Bill, my Uncle Sam 
and my Uncle Arthur and my father, all of whom served in World 
War II, and what a shame it was that there wasn't an 
appropriate memorial to represent the tremendous sacrifices 
made by their generation, including the more than 400,000 young 
people who lost their lives.
    I cannot imagine what this country or, for that matter, 
what this world would have been like had Senator Dole and all 
others who served so nobly not prevailed. It was the most 
important event of the 20th century. This memorial will be a 
living educational forum to teach future generations the true 
costs of freedom and liberty.
    Fortunately, this has become America's campaign. In little 
more than 3 years we have begun closing in on our fundraising 
goal. As of April 30th and excluding today's Wal-Mart's 
donation, 192 corporations gave $29.6 million, including 13 
that donated $500,000 or more and 10 that have given at least a 
million. Seventy-four private foundations have contributed $9.2 
million. Twenty-seven States passed legislation to donate $1 
for each citizen who served in the Armed Forces during World 
War II, generating $9.9 million. The remaining 23 States and 
Puerto Rico have introduced similar legislation this year. 
Three hundred eighty-six thousand individual Americans 
contributed more than $30 million, $27 million in response to 
direct mail solicitations, $2.7 million from calls to our toll-
free number and $1.2 million through our Web site. Major 
individual donors contributed another $1.8 million, including 
37 who contributed $10,000 and nine who have given at least a 
$100,000. Two hundred eighty schools also reported raising 
money. I am pleased that the schools in my hometown of Memphis 
lead this effort, having raised $10,344. Milwaukee High School 
in Oregon is a close second at $10,000 even. It goes without 
saying that we could not have accomplished so much without the 
unwavering support of this Nation's veterans, who are at the 
heart of this campaign. Overall, veterans' groups are raising 
millions of dollars through their internal campaigns, including 
the VFW, which committed $7.5 million, the American Legion, $3 
million. Another six organizations each gave a $100,000 or 
more, and thousands of World War II reunion groups across the 
country that have sent in contributions.
    Our success is due in large part to the public awareness 
generated by Tom Hanks's role as our national spokesperson, the 
History Channel's documentary watched by more than 2 million 
people, and the promotional and fundraising support of our 
cause-related marketing partners.
    We also have been helped by the aggressive efforts of more 
than 400 grass-roots volunteers and 60 community action 
councils, who solicit local businesses, organize fundraising 
activities, and plan special events in their communities. Many 
civic, fraternal and professional organizations, and numerous 
corporations are also developing campaigns in support of the 
memorial.
    At times, it's easy to get caught up in the day-to-day 
fundraising efforts and lose sight of our mission. We must 
never forget that we are here to pay tribute to those who did 
so much to ensure the freedom and prosperity we enjoy today. 
Thus, I am heartened that in addition to donations, the names 
of more than 400,000 Americans have been submitted for our 
World War II Registry of Remembrances that will honor those 
killed or missing in action, those who served in uniform, and 
those on the home front. There is no charge to enter your name 
on the registry.
    As you can see, we have received support across the 
country, from veterans to companies to classrooms. It is my 
hope that children who visit the memorial in the future will 
grasp the sense of sacrifice and accomplishment of the World 
War II generation and the tremendous pride our country showed 
for their achievement. I am proud to be a part of this effort 
to say thank you to what many have considered to be the 
'greatest generation' our country has produced.
    I thank the subcommittee for the opportunity to discuss my 
involvement in this long overdue project.

    Mr. Chairman, this concludes Frederick W. Smith's remarks.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T1730.007
    
    [GRAPHIC] [TIFF OMITTED] T1730.008
    
    Mr. Shays. We will now hear your remarks.
    General Herrling. Thank you, Mr. Chairman, members of the 
committee. On behalf of the Commissioners of the American 
Battle Monuments Commission, I am pleased to appear before you 
today, along with Senator Dole.
    As you know the American Battle Monuments Commission 
administers, operates and maintains 24 permanent memorial 
cemeteries and 27 monuments, memorials and markers in 15 
countries around the world.
    We have 8 World War I and 14 World War II cemeteries 
located in Europe, the Mediterranean, North Africa and the 
Philippines. In addition, we are responsible for American 
cemeteries in Mexico City and Panama. The maintenance of these 
facilities is labor intensive, so personnel costs amount to 
about 61 percent of our budget in fiscal year 2001.
    The remaining 39 percent is required to fund our 
engineering, maintenance, utilities, horticulture, equipment 
and administrative costs.
    We have now established an ABMC Web site which continues to 
grow in popularity. Through the Web our customers can access 
information on each of our memorial cemeteries, and the Korean 
War Veterans Memorial Honor Roll. We have recently brought on-
line 172,000 names registered in the ABMC World War II cemetery 
data base, and 33,700 names registered in the World War I data 
base.
    During fiscal years 1998 and 1999, we conducted a 
comprehensive manpower review. The results indicated that a 
number of downgrades, and upgrades, and new position 
descriptions were needed. Based on the survey results, and with 
the concurrence of OMB, we implemented position downgrades and 
upgrades in May 1999.
    This year ABMC and OMB undertook a study to determine if 
technology, outsourcing and automation improvements could 
reduce the growing cost of foreign employment. The study 
indicated we could defer or offset manpower growth by better 
using technology, outsourcing and automation. We will now look 
at the best way to implement these labor-saving measures.
    During fiscal year 2001, we will begin an infrastructure 
modernization program. Our cemeteries range in age from 50 to 
70 years old. With the help of the Congress and the OMB over 
the last 3 years, we have made excellent progress in reducing 
our backlog of maintenance and engineering projects. We must 
now begin to examine the infrastructure of these aging 
facilities and develop a plan to modernize our outdated 
systems.
    With regard to fiscal responsibility, the U.S. General 
Accounting Office gave the ABMC an unqualified opinion on our 
financial audits for 1997 and 1998, and I am pleased to report 
our recently completed fiscal year 1999 audit also received an 
unqualified opinion.
    In 1993, Congress directed the American Battle Monuments 
Commission to establish the World War II Memorial. Senator Dole 
and Mr. Smith have each spoken of the success of our 
fundraising campaign. I would like to take this opportunity to 
highlight the equally positive support we have received from 
the Congress.
    In 1999, Congress approved several legislative items which 
support the memorial's fundraising efforts. Public Law 106-58, 
signed in September 1999, makes the American Battle Monuments 
Commission and the World War II Memorial Advisory Board 
eligible to use nonprofit standard mail rates for official mail 
sent to solicit funds to support the memorial. This legislation 
will save the campaign approximately $800,000 in postage, and 
was introduced by your committee colleague, Congressman John 
McHugh.
    Public Law 106-17 signed in November 1999 authorized the 
ABMC $65 million in borrowing authority to ensure the timely 
construction of the memorial and to comply with the 
requirements of the Commemorative Works Act. This authority and 
our cash holdings may be used as available funds for the 
construction and the 10 percent maintenance fee required to 
obtain a construction permit.
    The legislation also extended the authorization to build 
the memorial to December 31, 2005, and granted the ABMC 
permanent authority to solicit and receive funds for the 
memorial. These funds will be preserved in the American Battle 
Monuments Commission's interest-bearing Treasury accounts 
including any funds remaining after the completion of the 
memorial.
    This committee, as well as the authorizers in the Veterans' 
Affairs Committee and the appropriators from the House and 
Senate Appropriations Committees, provide us congressional 
oversight. The American Battle Monuments Commission World War 
II Memorial Trust Fund has been audited annually since 1993 by 
the General Accounting Office and an independent CPA firm. As 
noted above, we are proud of our unqualified opinions from 
these auditors in the last 3 years. In addition, our cost to 
raise the dollars is well within the standards established by 
the charitable oversight watchdog organizations, such as the 
National Charities Information Bureau and the Council of Better 
Business Bureaus.
    Since 1923, the ABMC's cemeteries and memorials have been 
held to a very high standard that reflects America's continuing 
commitment to its Honored War Dead, their families and to the 
U.S. national image. The Commission intends to continue to 
fulfill this sacred trust while seeking ways to improve our 
overall management and operational efficiency.
    Mr. Chairman, this concludes my statement, and I will be 
pleased to answer your questions.
    [The prepared statement of General Herrling follows:]

    [GRAPHIC] [TIFF OMITTED] T1730.014
    
    [GRAPHIC] [TIFF OMITTED] T1730.015
    
    [GRAPHIC] [TIFF OMITTED] T1730.016
    
    [GRAPHIC] [TIFF OMITTED] T1730.017
    
    [GRAPHIC] [TIFF OMITTED] T1730.018
    
    [GRAPHIC] [TIFF OMITTED] T1730.019
    
    [GRAPHIC] [TIFF OMITTED] T1730.020
    
    [GRAPHIC] [TIFF OMITTED] T1730.021
    
    [GRAPHIC] [TIFF OMITTED] T1730.022
    
    [GRAPHIC] [TIFF OMITTED] T1730.023
    
    [GRAPHIC] [TIFF OMITTED] T1730.024
    
    Mr. Shays. Thank you, General. I appreciate your being 
here, and appreciate Mr. Aylward and Mr. Pond being here.
    The bottom line is that our committee has oversight of the 
Defense Department, the State Department and other agencies, 
and one of them is the American Battle Monuments Commission. We 
are very pleased that we do have this responsibility. We are 
here to look both at the World War II Memorial Campaign and 
also what you are doing in general, so we will be kind of 
covering both areas.
    As it relates to the World War II Memorial Campaign, what 
has been the most difficult challenge that--first off, before I 
do that, tell me how you interface with the campaign. In other 
words, is there a separate organization that you interact with? 
Is it your staff that is used? How does that happen?
    General Herrling. Sir, back when I first got involved in 
this campaign in 1995, our Washington office had a very small 
staff of 13 people. So to organize and develop a program for 
the World War II Memorial, I had to put together a plan that 
would build the fundraising staff and also a committee that 
would take a look into the site and design of the memorial. 
Over a period of 18 months, we brought people on board for the 
fundraising effort; and then our site and design committee took 
a look at the specifics of site and design for the memorial. 
But it was not an outgrowth of our Washington staff of 13 
people, but a separate entity in itself in my office.
    Mr. Shays. How large is that organization?
    General Herrling. It is about 37 people today.
    Mr. Shays. Separate from the 13?
    General Herrling. Yes.
    Mr. Shays. What has been your biggest challenge as it 
relates to the memorial campaign?
    General Herrling. The biggest challenge, Mr. Chairman, was 
to develop a national program, a program that would reach all 
sectors of the country, and I think we have been very 
successful in doing that. But for awhile, for about 2 years, 
much of the American public was not aware that we were trying 
to build----
    Mr. Shays. What 2 years?
    General Herrling. I would say 1996 and into 1997.
    Then when we were able to get Senator Dole to be our 
fundraising chairman, it gave us a visibility that we had not 
had before. Then as you may know, that ``Saving Private Ryan,'' 
part of it, was filmed in our cemetery in Normandy; so I wrote 
Tom Hanks and asked if he would be our spokesperson, and he 
indicated he would. I asked Senator Dole and Fred Smith to call 
him on the telephone and get that commitment.
    Mr. Shays. So your major challenges now are what?
    General Herrling. I am fairly confident that we will finish 
up our fundraising efforts by March of next year.
    The next major challenge this summer is to get our final 
approval from the two approving commissions in Washington, the 
Commission of Fine Arts and the National Capital Planning 
Commission. It is a three-phase approval process. You go in 
with a design concept initially--that was done in 1998--and 
then you have to bring in the preliminary design for their 
approval; and now this summer we hope to take the final design 
before those two approving Commissioners.
    Mr. Shays. Mr. Aylward, tell me, from your standpoint, what 
has been one of the most difficult challenges?
    Mr. Aylward. Mr. Chairman, I came on board about this time, 
July 1998; and it was fortuitous at that time that the design 
concept was approved in July 1998 because, quite frankly, 
people or contributors or potential contributors, be they 
corporations, foundations or individuals, whoever they may be, 
really want to know that something is going to happen. They 
want to see what this entity is, and they want to be 
comfortable with the fact that it is going to come to fruition.
    So the approvals by the Commission of Fine Arts and 
National Capital Planning Commission [NCPC] in July were very 
helpful. Then along came Tom Hanks and ``Saving Private Ryan.''
    The most difficult part for me has been the necessity to 
raise the money as quickly as we have had to; to bring about a 
campaign that has national awareness; and I think you have all 
been involved in the fundraising arena, so--you know, it is an 
extremely competitive environment, whether it be for a 
university, a health science center, a political endeavor, or 
in the religious community.
    In order to be competitive, you have to have recognition by 
the American public, and that was really accomplished through 
much of what the Tom Hanks ads were able to bring about.
    Then we had to reach out to the various constituencies. The 
veterans groups began to kick off their campaigns very 
aggressively, civic and fraternal organizations, the Knights of 
Columbus and others became involved, and slowly but surely it 
began to gain momentum and was now really a campaign across 
America.
    We did institute a very aggressive direct marketing 
campaign, and through direct mail.
    Mr. Shays. Let me touch on that in a second. But I make the 
assumption Mr. Pond, you're going to be here more to respond to 
the Commission's work in general; is that accurate?
    Mr. Pond. Yes, sir.
    Mr. Shays. The--maybe what--I would think the other 
extrodinarily difficult task you would have had is just, Mr. 
Aylward, the whole placement and design of this monument, I 
mean memorial. It's such a--you want it to be so perfect. And 
who is prepared to describe to me and to the committee the 
monument and the rationale behind it?
    Mr. Aylward. General.
    General Herrling. Mr. Chairman----
    Mr. Shays. We have a picture of it on the wall. We have 
obviously the model of it as well.
    General Herrling. The first step in the process is finding 
a site for the memorial. That was done in 1995. The National 
Park Service gave the Commission eight sites to look at. And 
they were in various locations around the city of Washington, 
and one was on the Columbia Circle, on the other end of the 
Memorial Bridge. But there were eight sites. And the site that 
was approved by the Department of the Interior, the Commission 
of Fine Arts, and the National Capital Planning Commission was 
the Rainbow Pool site, the site we have.
    Once you have the site, then it's a matter of developing a 
design. We went out on a nationwide open design competition, 
and in that competition we had over 400 entries. From those 
400, 6 were selected as finalists. Out of the six the winning 
design and the architect were selected.
    Mr. Shays. What are the principles--as I look at this 
memorial, it's certainly does seem in keeping with the existing 
site. I mean, you have a Reflecting Pool now and you'll have a 
Reflecting Pool afterwards. But what are some of the basic 
principles that went into this? What will people see when they 
go there?
    General Herrling. Two of the criteria that we were faced 
with was that it could not interfere with the vista from the 
Washington Monument to the Lincoln Memorial. That vista had to 
remain open.
    Mr. Shays. And you've been true to that.
    General Herrling. We've been true to that.
    Mr. Shays. But after that?
    General Herrling. Then you couldn't build anything that was 
higher than the existing elm trees, and those elm trees run 
between 65 and 70 feet high. So we've got two memorial arches, 
one on the north side of the memorial plaza and the other on 
the south, they're about 41 feet high from ground level. That 
was another criterion. Then there was an additional criterion 
as far as access for disabled.
    Mr. Shays. But what will people see when they go there? I 
see individual pillars. Do they have--do they commemorate?
    General Herrling. They do. The individual pillars--and 
there are 56 of them--represent each of the States during World 
War II and the 8 territories. At that time we had 48 States and 
8 territories. Each one of those pillars will have the name of 
the State or the territory on it. They represent two things: 
the individual strength of the States but also the idea of 
national unity, those States coming together and the people in 
those States coming together to fight World War II.
    On the north side of the memorial and on the south side 
you've got two identical memorial arches. As I said, they're 41 
feet high at street level. And inside those memorial arches 
there is a laurel wreath, a very large bronze laurel wreath 
that's being held up by four eagles. Those are to symbolize the 
victory won by World War II.
    On the western end of the memorial plaza, the closest to 
the Reflecting Pool, will be the Wall of Honor. There will be 
displayed a field of 4,000 gold stars, each star representing 
100 World War II dead, and there are about 406,000 who died. So 
there will be 4,000-odd stars on the wall. Then there will be 
some type of light of freedom that will come forth from a 
broken plane. The broken plane will symbolize the upheaval that 
was caused worldwide by World War II, the upheaval of the 
entire globe. And out of that upheaval will come this light or 
torch, the torch of freedom or light of hope over darkness.
    Now, the exact location of that symbolic torch has not been 
finalized yet. It may be against the western wall or it may end 
up being put in the center of the Rainbow Pool. That hasn't 
been decided.
    Mr. Shays. Thank you. Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. It seems almost 
incredulous to me that this hasn't been done before. When did 
this start? Have there been proposals in the past? I notice, 
like 1993 seems to be when it started to gain momentum. Is that 
correct?
    General Herrling. Mrs. Biggert I don't know if there was 
any serious consideration to constructing a World War II 
Memorial back shortly after the war. I think everybody assumed, 
or many assumed that the Iwo Jima Memorial, which represents 
the Marine Corps, was the National World War II Memorial. Of 
course it's not. It represents one service and one particular 
battle. But it was Roger Durbin, as Senator Dole said, who came 
to Congresswoman Marcy Kaptur and said why don't we have a 
National World War II Memorial. Now he did that in 1988, and it 
took 5 years to get the legislation approved in 1993.
    Mrs. Biggert. For the amount of money to be spent to build 
this, will there also be a fund for the maintenance? Is that 
part of this?
    General Herrling. It is part of it. One of the requirements 
of the Commemorative Works Act is that in addition to the cost 
of construction, we have to provide the National Park Service 
10 percent of the construction cost for maintenance of the 
memorial in perpetuity. So if the memorial is going to cost 
$70,000 we would have to add $7,000 for the maintenance cost. 
And that is figured into the overall cost of the memorial.
    Mrs. Biggert. Is that something, then, that's kept in a 
trust fund for interest, or how does that work?
    General Herrling. I'm not sure. The money is turned over to 
the National Park Service and they have an account that they 
can draw on for that purpose.
    Mrs. Biggert. I guess part of what you're doing, too, is 
then the looking after the cemeteries and the monuments that 
have already been built. What kind of maintenance problems have 
you encountered with those cemeteries and monuments?
    General Herrling. As I mentioned earlier, those facilities 
are anywhere from 50 to 70 years old. The sort of problems we 
deal with are structural, electrical, and primarily mechanical. 
But then you get into systems like heating and air 
conditioning, roofs, irrigation systems, and there's just a lot 
of other facets. So it's a very maintenance-intense endeavor.
    Mrs. Biggert. But there has been a backlog of maintenance 
problems that--will this come out of the same funds that you're 
raising, or is this----
    General Herrling. No, totally different funds. The American 
Battle Monuments Commission has a separate appropriation and 
the World War II Memorial is totally different. All those 
donations are kept in a separate Treasury account.
    Mrs. Biggert. Do people donate for the cemeteries and 
monuments or is that just an appropriation from----
    General Herrling. That's just an appropriation.
    Mrs. Biggert. You haven't done any fundraising on that.
    General Herrling. Not at all.
    Mrs. Biggert. When Ms. Norton was questioning the 
placement, it seemed to be that the biggest thing is the sight 
from the entire Mall down to the memorial. But it seems like 
you've really taken care of that. What other problems are there 
with building it where it is?
    General Herrling. Well, it's located, Mrs. Biggert, on a 
hundred year floodplain, so there are some problems with the 
construction, the foundation of it and things like that; but so 
is the FDR Memorial and so is the Lincoln Memorial. They're not 
architectural or construction problems that can't be overcome.
    I would tell you, though, that when we took the initial 
design concept before both those commissions in 1997, they 
approved the site. The Commission of Fine Arts approved the 
site unanimously, the National Capital Planning Commission 
approved it 9 to 2. But they turned down the design. They 
thought it was too large in scale for that part of the Mall. 
They sent us back and they said we want you to scale it down, 
and we'd like it to fit more easily into that particular area, 
in that environment on the Mall. We had to go back and almost 
completely reengineer much of the design. And then when we took 
it back in 1998 they approved the design concept.
    Mrs. Biggert. So do you--what other steps for approval do 
you have to take before--before you break ground?
    General Herrling. The last step hopefully will take place 
later this summer when we go before the Commission of Fine Arts 
and the National Capital Planning Commission for our final 
design approval. With the final design approval and the money 
necessary for the construction, we'll be given a permit to go 
ahead and have ground breaking.
    Mrs. Biggert. Have you a total dollar amount?
    General Herrling. The current estimate is that the memorial 
design, construction, and maintenance and dedication will come 
to about $98.2 million.
    Mrs. Biggert. Current.
    General Herrling. That could change because we're currently 
in the process of going from design documents to construction 
documents. The construction documents will be turned over to a 
contractor who will give us a much more precise construction 
cost.
    Mrs. Biggert. Is there Dutch elm disease in Washington?
    General Herrling. Is there? Yes, I think some of those 
trees on the Mall do suffer from that.
    Mrs. Biggert. It's a beautiful concept, the way it is now. 
I would hate to lose--the trees be gone.
    General Herrling. Well, we changed the design at one point. 
We downsized the Rainbow Pool by 15 percent. One of the reasons 
was to save some of those elm trees so we wouldn't get into the 
root systems. The other reason was so it more architecturally 
fit the overall geometry of the Mall.
    Mrs. Biggert. Well it's beautiful. Thank you. Thank you, 
Mr. Chairman.
    Mr. Shays. My colleague.
    Mr. Terry. Good morning Mr. Chairman. Sorry I missed the 
first part of the hearing but Midwest Express pilots didn't 
want to fly faster, contrary to my encouragement.
    I just want to make a couple of comments and one question. 
First of all I want to congratulate you on not only your 
dedication to the cause of the memorial but also on the efforts 
of making it a reality. Like you had said, the major component 
of making it a reality is the fundraising. From your speech or 
your handout, you raised 88--or you used the phrase ``netted 
88.''
    Mr. Aylward. We netted $88 million.
    Mr. Terry. About $10 to $12 million shy of hitting the goal 
and----
    Mr. Aylward. That's correct. That was as of the end of 
April.
    Mr. Terry. The word that stood out to me was ``netted.'' So 
I assume with the small and efficient productive staff you 
have, we aren't owing salaries and some of the stuff that some 
charitable organizations--I don't want to call them gimmicks, 
it's just normal course to make it look good. So ``netted'' to 
me is a term of art. That's pretty impressive if you've netted 
$88 million.
    Mr. Aylward. That's correct. We have maintained, and I 
think General Herrling alluded to it before, that the American 
Battle Monuments Commission was a small 13-member organization 
here in Washington. So basically what we had to build was a 
full fundraising staff. Currently our fundraising expenses are 
running about 26 percent of funds raised----
    Mr. Terry. That's not bad.
    Mr. Aylward [continuing]. 23 percent of all revenue income. 
And that includes some initial startup moneys from the 
Department of Defense and our interest income. And we are keep 
driving the percentage down. Year after year, we have driven 
that down from the 40 percentile mark in the initial stages, 
down to about 26 percent at this point in time.
    Mr. Terry. That's impressive. I appreciate that. Keep that 
trend going. That will be helpful.
    Mr. Aylward. As long-time fundraisers--I'm uniquely aware 
of the costs of raising $1 and its importance to the 
contributor.
    Mr. Terry. Your expertise is much appreciated, GAO giving 
you glowing reports on how you've handled it. That's much 
appreciated. Some little things of internal-type management 
information systems, I assume all that's--I don't want to call 
them minimal--requests have been taken care of, I assume.
    General Herrling. I think overall.
    Mr. Terry. I take the nod of your head as a yes.
    General Herrling. Overall our GAO reports have been very 
good. There have been some minor discrepancies they found and 
we've corrected those and we're moving on. But basically we had 
three unqualified opinions and I don't think that GAO has found 
one problem with our World War II Memorial fundraising.
    Mr. Terry. Which is a real accomplishment and you should be 
congratulated on that. I've read some of the other GAO reports 
for other entities that weren't as glowing. To read one as 
positive as this is impressive.
    Last question, real quickly. I did get pulled aside at one 
of the Memorial Day events by a Vietnam veteran, I didn't 
exactly know what he was talking about, but he was somewhat 
critical of this. Is there an undercurrent in some of the 
veteran committees that are critical of this? I have never 
heard of any criticism until the Vietnam vet mentioned 
something. It wasn't real specific.
    General Herrling. Addressing Vietnam vets particularly, 
there may be a few that have a particular feeling against this 
memorial, but I would tell you that the Vietnam Veterans 
Foundation donated $25,000 to us. So I think most of the 
Vietnam veterans are in support of this program. I would say 
that most veterans in the country, the veterans' organizations, 
have raised $10 million and will raise more. And they do that 
internally through their own programs. But we have had 
tremendous support from veterans' organizations. And we have 
tried to keep them involved in the design of the memorial.
    Mr. Aylward. We get tremendous communication from veterans 
and the World War II generation through letters, through e-mail 
and other mechanisms. They call us quite often to touch base 
with us.
    Mr. Shays. Mr. Pond, did you have something you wanted to 
say on this--because I will get to you.
    Mr. Pond. Mr. Chairman, I would go back to your original 
question, since you aksed what was the most difficult task, and 
I would like to address that. When Congress gave us the mission 
to raise $100 million and to build a memorial, the raising of 
funds was a foreign task to our small government agency. We sat 
with the secretary and executive director our 11 staffers and a 
huge mission and 11 Presidential appointees who are great 
Americans who gave us policy guidance. We all placed our 
concentration on this because, as the committee knows, there 
had been other people who--and Senator Dole alluded to it--had 
raised money and squandered it. We had the task not only to 
raise the money but to guard that money as Americans' dollars 
and to build a good memorial.
    It caused us to concentrate in one area so heavily that on 
occasion we had to remind ourselves that we had 350 employees, 
in 12 countries, running 24 of the most magnificent cemeteries 
in the world. We are fortunate that if we ever slacked off in 
that regard, about 96 percent of our U.S. employees are retired 
members of the Armed Forces of the United States who work daily 
with their head as well as their heart. So we hope that we did 
not slip, but if we did, I can assure you that they picked up 
the gap.
    The most difficult thing for us was to remember those folks 
that are doing that fantastic job in the field as well as the 
job that we had to do here. And I might say that Mr. Aylward, 
Senator Dole, Mr. Smith, Tom Hanks, and all of those who have 
come forward to help the American Battle Monuments Commission 
have just done a magnificent job.
    Mr. Shays. Let me ask about the fundraising, not to be--I 
would be derelict in our duty if we didn't pursue the 26 
percent a little better. First off, I'm unclear as to how much 
money actually sits in the bank. Where has it been used?
    Mr. Aylward. About $50 million, sir.
    Mr. Shays. Of the $100 million that you hope to raise, are 
you basically saying that $25 million of it will be used--will 
have been used to raise money and we will have $75 million, or 
are you saying----
    Mr. Aylward. No, we're saying it will cost us about $139 
million overall to raise the $100 million. And that will be 
able to maintain the office or the World War II endeavor out 
through approximately the early spring of 2003.
    Mr. Shays. Mr. Aylward, your staff is about 33 people, 
total.
    Mr. Aylward. We have about 33 people.
    Mr. Shays. So the total cost of running that staff plus 
doing all the--some are actually involved in the fundraising 
effort--all of that is included in the $139 million.
    Mr. Aylward. It's all included in the $139; public 
relations, everything. But the staffing will go down. We've 
already started an exit strategy based on the fact that we're 
closing in on our goal.
    Mr. Shays. The $139 million--of the $139 million, how much 
have you raised? When we're looking at that $100 million, I 
would say you have $14\1/2\ million today, let's call it a day.
    Mr. Aylward. With Wal-Mart today, we have raised $122.1 
million, so we have about $17 million to go.
    Mr. Shays. $122 what?
    Mr. Aylward. $122.1 million.
    Mr. Shays. And you're going to be raising about $139.
    Mr. Aylward. $139.6 million. That $139 million may come 
down. This is a fluid projection of the budget and we are 
continuing to reevaluate whether we can reduce costs, for 
example, a direct mail letter in a certain month or another 
program that would save us substantial funds.
    Mr. Shays. Now people can be following this hearing right 
now on the Internet. On the Internet right now, people can be 
following this hearing.
    Mr. Aylward. Yes.
    Mr. Shays. How would someone make a contribution on the 
Internet?
    Mr. Aylward. There's two ways. They can make it directly 
right into the Treasury, just like you would do through a 
credit card number or an account number, or many people 
download the form and send it in to us. So about 60 percent of 
our Internet----
    Mr. Shays. So what's your Web site and how do people, if 
they wanted to make a contribution right now, take advantage of 
this?
    Mr. Aylward. They could call our 1-800 number, 1-800 639-
4WW2.
    General Herrling. And the Internet site.
    Mr. Shays. The 800 number is passe right now. We want to 
get to--if you want to say the 800 No. 1 more time, but then 
let's get to the something more. What's the 800 number site 
again?
    Mr. Aylward. The 1-800 number? 1-800-639-4WW2.
    Mr. Shays. OK. And your Web site?
    General Herrling. The Web site is www.WWIImemorial.com.
    Mr. Shays. You want to give it one more time?
    General Herrling. www.WWIImemorial.com.
    Mr. Shays. Someone can just get into the system and make a 
contribution using their credit card.
    General Herrling. As Mr. Aylward said, a lot of people 
bring up the form on the Internet site and just download it and 
print the form out and send it in.
    Mr. Shays. So if they don't want to use a credit card and 
do that, they can do that.
    General Herrling. That's correct.
    Mr. Shays. Let me--just before we go to our next panel, 
just talk to me briefly about the overall task that you have 
with your 13 staff members who have a budget of about $28--you 
requested $28 million for next year; is that correct?
    General Herrling. Our request was $26.2 million.
    Mr. Shays. That enables you to take care of all these sites 
around the world. I was intrigued to know you had a site in 
Mexico City.
    General Herrling. That site, Mr. Chairman, goes back to 
1847 in our war with Mexico. There are 750 U.S. soldiers buried 
there.
    Mr. Shays. Now just refresh me on my American history. That 
is celebrating, from the Mexican standpoint, what?
    General Herrling. I'm----
    Mr. Shays. In other words, I understand we have soldiers 
buried in Europe, and they gladly donated this land in 
gratitude to the men and women who gave their lives defending 
freedom in Europe. The sites in Panama and the site in Mexico 
City commemorates what from the standpoints of the host 
country?
    General Herrling. I don't know that it commemorates--it has 
the same meaning that we attach to it. But those governments 
provided us with the space and gave us that ground in 
perpetuity for those cemeteries.
    Mr. Shays. I find that intriguing really. And we have 
visitors that visit these sites both from the United States and 
within the indigenous countries?
    General Herrling. Yes, we do. In fact, I'm not talking 
specifically about Mexico City or Panama, but in our 24 
cemeteries around the world the visitors last year were about 
10\1/2\ million people.
    Mr. Shays. Through all the sites.
    General Herrling. Through all the cemeteries.
    Mr. Shays. How has the Commission addressed the problems 
that GAO noted concerning its internal controls over 
information technology systems? In other words, you got a good 
audit but with some reservations.
    General Herrling. Yes, and those reservations are called 
material weaknesses. They had to do with a lack of user 
documentation in the four offices we have around the world. The 
systems didn't have an automatic lockout procedure to prevent 
people from getting into that data. There was an inadequate 
continuity plan and inadequate storage procedures. But most of 
those have been corrected. Now what few items remain open are 
only to a reportable condition. So we've taken a very serious 
step to eliminating what the GAO had pointed out to us back in 
1997 and 1998.
    Mr. Shays. Is there anything that any of you, three of you, 
would like to say before we get on to our next panel?
    General Herrling. Sir, I would just say, like Mr. Pond, I 
think it's unprecedented in some regard that a Federal agency 
the size of ours, was given the task of raising $100 million 
and building this memorial. It's a task that we've really taken 
on with vigor. But I don't think any other Federal agency has 
ever been asked to raise $100 million. That's something we've 
done and we've enjoyed and we've learned a lot by it, but I 
wouldn't want to be asked to do it again.
    Mr. Shays. Again, Mr. Pond, Mr. Aylward, any comments, any 
questions we should have asked you that you would like to ask 
yourself?
    Mr. Pond. I would only say, Mr. Chairman, that we ask you 
and all of your colleagues, when you travel on your trips 
throughout the world--we have passed to you our annual report 
and it shows exactly where all of our cemeteries are located--
we would be deeply honored if you would take time out of your 
schedule when you're in those foreign countries to visit our 
cemeteries.
    Mr. Shays. Thank you very much. Thank you gentlemen. 
Appreciate you being here. Appreciate your work.
    I now invite David Clark, Director, Audit Oversight and 
Liaison Accounting and Information Management Division, U.S. 
General Accounting Office, and Dennis Cullinan, director, 
legislative services, Veterans of Foreign Wars of the United 
States--ask you both to stand because I'll be swearing you in.
    [Witnesses sworn.]
    Mr. Shays. Thank you gentlemen. I appreciate your patience 
in waiting for this panel to be called and thank you, Mr. 
Clark, for coming here. Sometimes we isolate GAO as a separate 
panel, but happy to have representative from Veterans of 
Foreign Wars here as well, and to say in a sense you speak for 
all your fellow veterans and other veterans groups. I think 
they are down in New Orleans commemorating the D-Day invasion 
and the monument there. So we thank you. You're doing double 
duty Mr. Cullinan.
    Mr. Clark, we'll let you start.

  STATEMENTS OF DAVID L. CLARK, DIRECTOR, AUDIT OVERSIGHT AND 
 LIAISON, ACCOUNTING AND INFORMATION MANAGEMENT DIVISION, U.S. 
   GENERAL ACCOUNTING OFFICE; AND DENNIS CULLINAN, DIRECTOR, 
 LEGISLATIVE SERVICES, VETERANS OF FOREIGN WARS OF THE UNITED 
                             STATES

    Mr. Clark. Thank you, Mr. Chairman. It's both an honor and 
a pleasure to be here. It's an honor to be in the company of 
Senator Dole, General Herrling and the others in this room who 
have worked hard to commemorate the services of American Armed 
Forces and to help establish a World War II Memorial.
    And it's a pleasure to be here for two reasons. First, I've 
testified before this subcommittee before on the subject of 
accountability. A couple years ago I was here to talk about 
strengthening the accountability over Employee Retirement 
Income Security, that act, and employee benefit plans. In fact 
you may recall, Mr. Chairman, I was on a panel and you asked us 
to come up and sit up with you while you asked questions of 
another panel, which was an interesting and rather exhilarating 
experience, I might add.
    Mr. Shays. We only did it once.
    Mr. Clark. Darn.
    Second, I'm pleased to be here because, as Mr. Terry I 
think pointed out real well, we have a positive story to tell. 
And for those who are familiar with GAO testimony, that's not 
always the case. So it's nice to be able to do that every now 
and then.
    GAO first began auditing ABMC in 1983 when Congress created 
the World War II fund. At that time, ABMC did not prepare 
agency-wide financial statements, and the law required only 
that we audit the revenue and expenditures of the memorial 
fund. In fiscal year 1997, ABMC began preparing agency-wide 
statements and we began auditing them. We strongly supported 
the legislation requiring ABMC to prepare the statements and we 
commend ABMC for both their efforts in preparing the statements 
and their cooperation in responding to our audits.
    Agency-wide financial audits are vitally important in 
ensuring accountability, principally because they determine the 
reliability of financial information reported, provide 
information on the adequacy of systems and controls used to 
ensure accurate financial reports, safeguard assets and report 
on agencies' compliance with laws and regulations.
    As has been discussed this morning, ABMC has successfully 
prepared financial statements for each of the past 3 fiscal 
years and we have given ABMC an unqualified or clean opinion on 
their statements for each of those years.
    Importantly, ABMC statements now provide a separate column 
or counting for the World War II fund, which is critical given 
the importance of the fund and the fact that the fund now 
comprises the majority of ABMC financing sources and assets.
    Specifically, we have reported that ABMC's financial 
statements are reliable in all material respects, internal 
controls over financial reporting are effective, and that we 
found no reportable instances of noncompliance with the 
selected provisions of laws and regulations we tested.
    I want to stress that ABMC has promptly and effectively 
responded to all of our audits and has resolved virtually all 
of the issues and concerns we have raised. For example, in 
response to our audits, ABMC has strengthened its controls over 
cash, developed and implemented effective policies regarding 
the recording of accounts payable as other accruals, and better 
segregated duties among its staff to better strengthen its 
controls over goods purchased.
    ABMC is also in the midst of acquiring a new integrated 
accounting system, which when implemented should substantially 
resolve the few issues that remain outstanding. For example, 
the new system will provide more comprehensive controls over 
passwords and internal access to ABMC's accounting and 
disbursing systems. The ABMC has approached this issue with the 
utmost care and thoroughness and plans to have a new system in 
place by next year.
    Before I close, I think it's important to put ABMC's 
financial accountability in context. Preparing financial 
statements with a clean audit opinion is not a small feat. 
Unlike ABMC, many Federal departments and agencies today still 
cannot produce reliable financial statements, continuing to be 
plagued by significant financial management weaknesses, 
problems with fundamental recordkeeping and financial 
reporting, incomplete documentation and weak internal control, 
including computer controls.
    ABMC, on the other hand, after being in business 
successfully for nearly 75 years without agency-wide 
statements, and with almost no advance notice, had to quickly 
document, develop, and implement new accounting policies, 
procedures and systems, and to develop financial statements 
almost from scratch. They had to do that at the same time, I 
might point out, while subjecting itself to a comprehensive 
audit from us. The agency not only did this and did it well, 
but in a sense has become a model for other Federal agencies 
through a number of accomplishments, not the least of which is 
complying early with difficult new accounting standards 
requiring the computation and reporting of deferred 
maintenance.
    We believe that ABMC should be commended for its efforts, 
its progress and its accomplishments in this regard. That 
concludes my summary statement.
    Mr. Shays. Thank you, Mr. Clark.
    [The prepared statement of Mr. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T1730.009
    
    [GRAPHIC] [TIFF OMITTED] T1730.010
    
    [GRAPHIC] [TIFF OMITTED] T1730.011
    
    [GRAPHIC] [TIFF OMITTED] T1730.012
    
    [GRAPHIC] [TIFF OMITTED] T1730.013
    
    Mr. Shays. Mr. Cullinan.
    Mr. Cullinan. Thank you very much.
    Mr. Shays. How do you say your name properly?
    Mr. Cullinan. Cullinan.
    Mr. Shays. Cullinan.
    Mr. Cullinan. It's just like Culligan but Cullinan.
    Thank you very much, Mr. Chairman, members of the 
committee. Before beginning, I must say in this particular 
instance it is indeed a pleasure to be sitting at the same 
table as a representative of the General Accounting Office.
    Mr. Shays. So noted.
    Mr. Cullinan. It's not often that I would say that.
    Mr. Clark. It won't work, but go ahead.
    Mr. Cullinan. I am pleased to be here today representing 
the men and women of Veterans of Foreign Wars and our Ladies 
Auxiliary and, in fact, all of America's veterans, to voice our 
steadfast support on behalf of the National World War II 
Memorial. The VFW recognizes the importance of supporting the 
World War II Memorial both morally and philosophically. As you 
know, more than 400,000 Americans lost their lives during World 
War II. An additional 672,000 were wounded. It was a time of 
great sacrifice for this country but also a time when our 
veterans displayed tremendous valor, commitment and vision, and 
helped firmly establish the United States as a world power.
    The VFW, which includes close to 1 million World War II 
veterans among its membership, believes that this well-deserved 
and long-overdue recognition of veterans will not only honor 
the spirit of those who served but also pay homage to the 
legacy of an entire generation of Americans who lived during 
World War II.
    At this juncture, I would express our special thanks, 
especially on behalf of our men and women from the great State 
of Ohio, to Congresswoman Marcy Kaptur for having taken the 
lead in this instance. The VFW is so committed to seeing the 
World War II Memorial become a reality that a grassroots 
membership including Vietnam veterans has already raised over 3 
million for this noble purpose. Within a year we are nearly 
half way to meeting our goal of $7.5 million, making us the 
second largest single contributor and first among all veterans 
service organizations.
    Individual VFW members also played an instrumental role in 
facilitating and contributing to the single largest collection 
effort made by Wal-Mart. A number of those World War II 
veterans, as Senator Dole referenced earlier, who work in Wal-
Mart are also VFW members.
    To honor those courageous veterans who in their youth saved 
the world, the VFW has given unprecedented support to ensure 
that their sacrifices are always remembered for generations to 
come. The VFW will match donations at a rate of $1 for every $2 
donated by VFW members, post, and the general public. Although 
the memorial is within reach of fulfilling its goal of 
completion, time is still of the essence. It is estimated that 
fewer than half of the 16 million men and women who served 
during the Second World War are still alive. The VFW will 
continue to work to ensure that these funds are used for the 
portions of the memorial dedicated to those who died in the 
service to this Nation during that great conflict.
    We especially commend the American Battle Monuments 
Commission as well as the Memorial Campaign for the yeoman 
service they have offered up in this regard.
    Mr. Chairman, this concludes my testimony. I would be happy 
to answer any questions you may have.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Cullinan follows:]

    [GRAPHIC] [TIFF OMITTED] T1730.004
    
    [GRAPHIC] [TIFF OMITTED] T1730.005
    
    [GRAPHIC] [TIFF OMITTED] T1730.006
    
    Mr. Shays. I first want to commend the VFW for setting a 
goal of $7.5 million. That's truly extraordinary with all the 
other activities that have--you and the services you provide, 
to take that on as an obligation is quite commendable.
    Mr. Cullinan. Thank you very much.
    Mr. Shays. I want to be clear, Mr. Clark, you audit both 
the Commission as well as the memorial fund.
    Mr. Clark. We began auditing just the memorial fund in 
1993. So for 1993, 1994, 1995, 1996, that's all that we 
audited, and we issued a separate report just on that. Now what 
we have is a comprehensive set of financial statements which 
includes all of ABMC's operation. If you look at the financial 
statements, you will see that there's a separate column on the 
financial statements just for the World War II funds. So you 
can see the whole ABMC at one time, and within those statements 
see the separate funds for the World War II fund.
    Mr. Shays. So just address the fund itself. The fund is 
sound; how would you describe the effort on the fund?
    Mr. Clark. I would like to point out first, our purpose is 
to ensure that the financial statements accurately reflect what 
ABMC has in the fund, what it has spent, what its obligations 
may be. And that is fairly presented or it's accurate. If you 
go beyond that, you will see that the fund in fact is healthy. 
As the witnesses were testifying earlier, we were over here, we 
were reconciling those numbers and they sounded accurate to us. 
Our report is as of last September 30th, so we are assuming the 
numbers you have today are much updated.
    Mr. Shays. They've raised significant funds since then. Can 
you address the concept of 26 percent of the cost going into 
the fundraising effort? Is that something you can address? If 
not, I don't want you to. In other words, is that something you 
spoke to?
    Mr. Clark. That is not something we look at specifically.
    Mr. Shays. But you verify basically that they allocated so 
much for fundraising, they raised so much.
    Mr. Clark. Yes.
    Mr. Shays. Mr. Cullinan, do you want to speak about the 
efforts to raise funds in general and your sense of how they're 
doing?
    Mr. Cullinan. Actually I would, Mr. Chairman. I think this 
is a terrific example of a movement that's from the bottom up. 
You know, in many things, especially with respect to what does 
and does not get done here on Capitol Hill, the national 
organization takes the lead. But this is an example where the 
individual members, auxiliary members, our VFW posts throughout 
the Nation, took it upon themselves to not only initiate action 
but to follow through.
    There's almost a humorous side bar reference to our efforts 
on behalf of Wal-Mart earlier, and indeed I believe our 
membership played a significant role. But as a veterans service 
organization with a set goal of $7.5 million, we would have 
liked for them to make their financial donations through the 
VFW. Sometimes they were so zealous, so enthused about seeing 
this World War II Memorial become reality, they went through 
Wal-Mart or elsewhere. So I think that says it all. It's in the 
hearts and souls of the VFW membership, the grassroots.
    Mr. Shays. A family affair, isn't it?
    Mr. Cullinan. A family affair.
    Mr. Shays. Would you just want to address the site location 
and how you all resolve it in your organization's mind?
    Mr. Cullinan. We are not professing to being experts in 
matters of architecture or esthetics. The VFW is on record in 
support of the site location. We've testified twice before the 
Congress in this regard as well as the Fine Arts Commission and 
elsewhere, you know. Our objective as a veterans organization 
is to ensure that the best possible memorial be constructed in 
honor of the heroes of the Second World War, and that's our 
perspective.
    Mr. Shays. As I look at the site, I see an archway with 
people. I guess in the model it represents people. And you 
realize that's still quite an impressive site, even though they 
toned it down a bit. But as someone who went, evolved from 
being opposed to the site to someone who supports it based on 
two things--one, the fact that they did make it more in keeping 
size-wise, but also they basically maintain the Reflecting Pool 
as it pretty much is--I mean, it will be slightly different--
and the site line.
    So I think what they did was a very acceptable and more 
than acceptable job of conforming to the concerns that some 
people expressed, and still being in a place that people will 
see and enjoy. So I think it's--I think they did well. That's 
kind of how I evolved in that process.
    I don't have other questions. Mrs. Biggert, do you have 
questions you would like to ask?
    Mrs. Biggert. Well, since this report is so good, it's 
really hard to ask any questions.
    Mr. Shays. We don't have to make news.
    Mrs. Biggert. That's right. I might just ask, Mr. Cullinan, 
do you think that your sources for fundraising are pretty 
tapped out? I mean, are there more members that you can go to 
or is this----
    Mr. Cullinan. This is a conversation yesterday afternoon 
with our Kansas City headquarters. They're the ones who 
coordinate the matching program and are in touch with our 
various posts and grassroots representatives. From what they 
tell me, enthusiasm is still there. Yes, it is quite a burden 
and there are many things that they're asked to contribute to, 
many worthy things. But this seems to be a very special issue, 
I would emphasize, not just for the World War II veterans but 
veterans of other wars as well.
    Mrs. Biggert. So you think you'll have no problem reaching 
your goal.
    Mr. Cullinan. I think it looks good.
    Mr. Shays. She does that after every question that she 
asks.
    Let me ask you gentlemen if you have any comments. Your 
testimony is on the record and you did hear testimony that 
preceded you. If you want to respond to any comment or question 
that was asked of the previous panel, be happy to have you 
respond to it.
    Mr. Clark. Not from me, sir.
    Mr. Cullinan. We want to thank and congratulate you for 
having today's hearing.
    Mr. Shays. Thank you both. It's very exciting. Truly, Mr. 
Clark, I know if you had felt there were concerns, you would 
have voiced them. So I think your audit is one which we're 
happy to hear about, and congratulate the Commission and look 
forward to this memorial, this monument, this shrine to our 
World War II veterans and the generation in general being 
built, and happy that we have a lot of good things to look 
forward to.
    And we'll just reemphasize, you had suggested that maybe 
more than half--Mr. Dole had used the number 6 million of the 
16 million still living--obviously it's somewhere in that 
number--but 1,000 a day, veterans that we are losing. I want to 
have as many veterans as possible see this facility, and I 
congratulate Ms. Kaptur on the other side of the aisle for 
acting on a constituent concern and Congress following through 
on it and the administration and the agency moving forward.
    And so I thank all who participated in this hearing, and we 
will adjourn. In fact, we will close the hearing. Thank you.
    [Whereupon, at 11:46 a.m., the subcommittee was adjourned.]


</pre></body></html>
